RAILROAD SAFETY:
Amtrak is Not Adequately Addressing Rising Drug and
Alcohol Use by Employees in Safety-Sensitive Positions




                         Report No. OIG-E-2012-023 | September 27, 2012
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:            Joseph H. Boardman, President & CEO

From:          Ted Alves

Date:          September 27, 2012

Subject:       Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol
               Use by Employees in Safety-Sensitive Positions (Report No. OIG-E-2012-023)

In January 1987, in Chase, Maryland, a Conrail engineer ran three signals, causing a
collision with an Amtrak train, killing 16 people and injuring 147. The subsequent
investigation determined that the engineer was under the influence of marijuana.
Following this accident, a federal regulation1 was put into place requiring railroads,
including Amtrak, to maintain a program to control the use of drugs and alcohol by
hours-of-service (HOS)2 employees in safety-sensitive positions. Federal Railroad
Administration (FRA) guidance implementing this regulation requires Amtrak to
randomly test at least 25 percent of its HOS employees for drugs and at least 10 percent
for alcohol each year. Amtrak must also physically observe each employee for signs and
symptoms of drug and alcohol use once every 3 months, on average. Amtrak has over
4,400 HOS employees, including locomotive engineers, conductors, and train
dispatchers, and also some employees who maintain signals equipment (signals
employees) and some employees who operate locomotives within the mechanical yard
or maintain locomotive cab signal equipment (mechanical employees). Amtrak
estimates that it plans to spend about $1.5 million in FY 2012 administering its drug and
alcohol (D&A) program.



149 CFR Part 219, as amended.
2Hours-of-service employees must have at least 10 hours off duty between working shifts, pursuant to
the Rail Safety Improvement Act of 1988 (P.L. 100–342), because they often work in safety-sensitive
positions.
                                                                                                       2
                              Amtrak Office of Inspector General
    Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                       by Employees in Safety-Sensitive Positions
                      Report No. OIG-E-2012-023, September 27, 2012

FRA requires Amtrak, as part of administering its D&A program, to exercise “due
diligence” to ensure that its HOS employees are not using illegal drugs, using
controlled substances without a prescription, or using alcohol while on duty or for 8
hours prior to duty.3 FRA guidance implementing these regulations states that Amtrak
“must make every effort” to ensure that its personnel are complying with the
regulations and “may not overlook potential violations through its own negligent
actions (or failure to act).” In addition, Amtrak has a responsibility “to continually
improve its ability to detect and deter covered service personnel from misusing drugs
or alcohol,” and its practices and programs “may not offer an opportunity for covered
personnel to avoid detection because of carelessness, indifference, or inattentive
performance.”

Amtrak is one of 38 large railroads that are required to have a drug and alcohol
program and report the results of their data to FRA. As part of its regulatory oversight,
FRA periodically reviews and reports on Amtrak’s program. An FRA official involved
with this oversight stated that Amtrak’s D&A Program Office has made substantial
improvements in the administration of its program over the last decade. Since 2006 FRA
has repeatedly commended the program office on its administration of drug and
alcohol testing and other aspects of the program that it controls. In a 2012 report, FRA
stated that Amtrak’s D&A program is well organized thanks to capable managers and
staff in the program office and that these managers are totally committed to and
invested in this critical safety program.4 According to the D&A Program Manager, the
program was moved from Amtrak’s Human Resources Department to the
Environmental Health and Safety office in October 2011.

We initiated this evaluation to determine whether Amtrak is ensuring that its HOS
employees are complying with federal regulations governing the use of drugs and
alcohol. Specifically, we evaluated (1) the extent to which Amtrak’s random testing
shows that HOS employees are using drugs and alcohol, and (2) whether Amtrak is
exercising due diligence in controlling the use of drugs and alcohol by these employees.
For a detailed discussion of our evaluation methodology, see Appendix I.


3 See 49 CFR Part 219, as amended, for a full list of prohibitions. Whereas the regulation prohibits HOS
employees from using alcohol 4 hours prior to duty, Amtrak’s Drug and Alcohol policy (7.3.0, November
30, 2004) prohibits alcohol use for 8 hours prior to duty.
4 Nonetheless, FRA did express concern in this report with Amtrak’s compliance in areas beyond the

program office’s control.
                                                                                         3
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

SUMMARY OF RESULTS

Amtrak’s HOS employees are testing positive for drugs and alcohol more frequently
than their peers in the railroad industry. Our analysis of Amtrak’s random drug and
alcohol test results shows that these employees have been testing positive for drugs and
alcohol at a rate that has been generally trending upward since 2006, and this rate has
exceeded the industry average for the past 5 years. The majority of Amtrak’s positive
tests since 2006 were for drugs, primarily cocaine and marijuana. In 2011, Amtrak had
17 positive tests for drugs or alcohol, which resulted in a combined positive test rate
that was about 51 percent above the industry average, its worst rate since 2007. The
2011 rate was driven by a relatively large number of positive tests by signals and
mechanical employees that were both over four times the rate of their peers in the
industry. Based on the random test data, we calculated, with 95-percent confidence, that
if all 4,454 HOS employees had been tested in 2011, between 21 and 65 of these
employees would have tested positive for drug use, with a best estimate of 43
employees. We also calculated that between 4 and 32 of Amtrak’s HOS employees
would have tested positive for alcohol use, with a best estimate of 18 employees.

Amtrak is not exercising due diligence to control the use of drugs and alcohol by these
employees. Until we presented Amtrak’s key senior management with our preliminary
results, they were unaware of the extent of drug and alcohol use by these employees.
Further, senior management is not actively engaged in the program, nor have they
demonstrated that controlling drugs and alcohol is a clear priority at Amtrak, thereby
making it difficult to manage the risk that drug and alcohol use poses to its employees,
passengers, and the public. Amtrak also did not adequately address, for several years,
FRA’s concerns about Amtrak’s program to physically observe HOS employees for
signs and symptoms of drug and alcohol use. Consequently, FRA has stated that it may
elevate enforcement actions against Amtrak up to and including fining Amtrak in the
future if the number of observations is not improved. This may become more
challenging because the number of HOS employees requiring observation may increase
by 2,260 in 2013 due to potential changes in the regulation.

Drug and alcohol misuse by Amtrak’s HOS employees poses a potential threat to
employee, passenger, and public safety. The federal regulation was established to
address drug and alcohol use by railroad employees in safety-sensitive positions in an
attempt to limit accidents and improve public safety. However, Amtrak is not
complying with the due diligence requirement of this regulation. In particular,
                                                                                           4
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

Amtrak’s current senior management’s lack of knowledge about the extent of drug and
alcohol use, the lack of engagement in the program, and the limited response to FRA’s
concerns about its physical observations raise serious questions about Amtrak’s
commitment to controlling drug and alcohol use. These conditions increase the risk that
a serious accident will occur that involves drugs or alcohol. The fact that this risk is not
yet integrated into an enterprise-wide risk management framework increases the
likelihood that it will not be adequately addressed.

To manage the risks associated with its increasing rate of drug and alcohol use and to
meet the federal requirement for exercising due diligence, we are making five specific
recommendations. We recommend that Amtrak increase the rate at which it randomly
tests its HOS employees, routinely review testing data, demonstrate that senior
management is engaged in the D&A program, ensure that the physical observation
program meets or exceeds FRA’s program guidance, and ensure that its HOS
supervisors are adequately trained in identifying signs and symptoms of drug and
alcohol use and that their training is properly recorded.

Amtrak’s President and CEO provided us with comments on a draft of this report on
September 24, 2012, wherein he concurred with all of our recommendations and
established time frames in which Amtrak will implement the recommendations (see
Appendix II). We consider his comments responsive to our recommendations and will
follow up on their implementation.
                                                                                                        5
                              Amtrak Office of Inspector General
    Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                       by Employees in Safety-Sensitive Positions
                      Report No. OIG-E-2012-023, September 27, 2012

AMTRAK EMPLOYEES ARE USING DRUGS AND ALCOHOL
AT RATES HIGHER THAN THE INDUSTRY AVERAGE

Amtrak’s HOS employees test positive for drugs and alcohol (combined) more often
than their peers in the railroad industry. While the industry rate of random positive
tests for drugs and alcohol has generally trended downward since 2006, Amtrak’s rate
has generally trended upward.5 As shown in Figure 1, Amtrak’s combined rate of
positive tests for drugs and alcohol from 2006 through 2011 averages about 1.4 times
that of the industry. This includes 92 positive tests for drugs and alcohol out of 17,831
tests administered during this period. The majority of the positive test results (67
percent) were for illegal drugs, primarily cocaine and marijuana, rather than alcohol.6

      Figure 1. Positive Rate for Random Drug and Alcohol Tests of
                        HOS Employees, 2006–2011




Source: OIG analysis of 2006-2011 Amtrak and FRA data


5 According to an FRA official, a positive test means only that the employee has used a prohibited
substance within a certain period of time, not necessarily that he or she was impaired at the time of
testing.
6 Amtrak tests for marijuana, opiates such as heroin and codeine, stimulants such as cocaine and

amphetamines, and the hallucinogen known as PCP.
                                                                                                          6
                              Amtrak Office of Inspector General
    Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                       by Employees in Safety-Sensitive Positions
                      Report No. OIG-E-2012-023, September 27, 2012


Some of the positive tests were from HOS employees who had previously tested
positive. Amtrak’s policy guidelines state that employees who test positive for drugs
and alcohol a second time within 10 years of active service—after seeking treatment
through Amtrak’s Employee Assistance Program—will be removed from service and
are subject to dismissal. We identified six employees who, between 2006 and 2011,
tested positive a second time, all testing positive for drugs, in the 10-year window.
These individuals are no longer employed by Amtrak; one was terminated, four
resigned, and one retired.

According to an FRA official, one of the reasons the industry’s positive test rate has
decreased over the last several years is that many of the other railroads FRA oversees
are testing a higher percentage of their HOS employees than required. Also, according
to Amtrak’s D&A Program Office, several large freight railroads are testing 50 percent
of their HOS employees, and have been for years. The increased testing rate deters the
misuse of drugs and alcohol because, according to an FRA official, the HOS employees
perceive that there is a greater likelihood that they will be caught. In comparison,
Amtrak’s average testing rate between 2006 and 2011 was 33 percent for drugs and 39
percent for alcohol. This is still above the FRA minimums, but below the testing rates of
some of the other large railroads.

In 2011 Amtrak’s combined random positive test rate was its worst since 2007, at 51
percent above the industry average.7 Positive drug tests accounted for 12 of Amtrak’s 17
positive tests. Based on Amtrak’s random test data, we calculated, with 95-percent
confidence, that if all 4,454 HOS employees had been tested, between 21 and 65 of these
employees would have tested positive for drug use, with a best estimate of 43
employees. We also calculated, with 95-percent confidence, that if all HOS employees
had been tested in 2011, between 4 and 32 of these employees would have tested
positive for alcohol use, with a best estimate of 18 employees. None of Amtrak’s
locomotive engineers tested positive in 2011 but, as shown in Figure 2, signals and


7When looked at separately, Amtrak’s rate of drug use was over twice the industry average, but alcohol
use was 12 percent lower than the industry average for 2011. In addition to comparing Amtrak with the
overall industry rate, we attempted to identify Amtrak’s rank among the 38 railroads that FRA oversees,
but FRA would not release this third-party information. However, based on available industry-wide
information, we estimate that if Amtrak’s rate of positive tests for drug and alcohol use in 2011 was equal
to the industry average, 18 HOS employees would have tested positive for drugs and 14 would have
tested positive for alcohol.
                                                                                                             7
                              Amtrak Office of Inspector General
    Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                       by Employees in Safety-Sensitive Positions
                      Report No. OIG-E-2012-023, September 27, 2012

mechanical employees drove up Amtrak’s positive tests, with these employee groups
both testing positive over four times more frequently than their peers in the industry.8

        Figure 2. Positive Rate for Random Drug and Alcohol Tests
                        in 2011, by Employee Group




Source: OIG analysis of 2011 Amtrak and FRA data




8The 17 positive tests in 2011 breaks out as follows: six positive tests from signals employees, five from
conductors, four from mechanical employees, and two from dispatchers.
                                                                                                        8
                              Amtrak Office of Inspector General
    Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                       by Employees in Safety-Sensitive Positions
                      Report No. OIG-E-2012-023, September 27, 2012

AMTRAK IS NOT EXERCISING DUE DILIGENCE TO
CONTROL DRUG AND ALCOHOL USE

Amtrak is not exercising due diligence in order to control the use of drugs and alcohol
by HOS employees in safety-sensitive positions. Until we presented Amtrak’s senior
management with our preliminary results, they were unaware of the extent of drug and
alcohol use by these employees. Further, senior management is not actively engaged in
the program, nor have they demonstrated that controlling drugs and alcohol is a clear
priority at Amtrak. Likewise, Amtrak did not adequately address FRA’s concerns about
its physical observation program.



Senior Management Was Unaware of Drug and Alcohol Use by
Employees

None of Amtrak’s current senior managers who we interviewed were aware that HOS
employees were testing positive at a rate higher than that of industry, before we
presented them with the results of our evaluation. While we confirmed that senior
managers and Amtrak’s Board of Directors had received information on drug and
alcohol use in 2000, several current key senior executives and three superintendent-
level field personnel stated that they had not seen information on drug and alcohol use
for several years, potentially since 2003. However, all stated that it would be useful to
know the extent of drug and alcohol use by HOS employees.

It is unclear why current senior management has not proactively sought this
information, given that it is readily available from several sources. For example, the
D&A Program Office keeps records and provides drug and alcohol testing information
to FRA on an annual basis. Also, according to officials in the program office, they have
offered to discuss this information with senior management on several occasions, and
most recently met with the then-Vice President of Operations in 2011.9 In addition to
getting information directly from the program office, information on drug and alcohol


9The D&A Program Office also attempted to the meet with the then-Vice President of Operations and the
then-head of Human Resources in 2010, but this meeting was canceled and not rescheduled. D&A
program officials stated that their office has only a limited capability to analyze and compare Amtrak and
industry data in order to present it in a compelling way. This may have limited management’s interest in
holding the meeting; however, we were unable to confirm this, as both officials have left Amtrak.
                                                                                                             9
                               Amtrak Office of Inspector General
     Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                        by Employees in Safety-Sensitive Positions
                       Report No. OIG-E-2012-023, September 27, 2012

use by HOS employees is included in FRA’s compliance reports on Amtrak’s D&A
program, which are addressed to the President of Amtrak.

Additionally, to get an indication of the extent of drug and alcohol use by HOS
employees, Amtrak management could have obtained trend data from Operation
RedBlock. This program promotes awareness and education of drug and alcohol use in
the workplace through peer volunteer prevention committees. RedBlock allows these
employees to excuse themselves from work by “marking off” if they believe they are
impaired due to drug and/or alcohol use. We previously recommended—in both our
2008 and 2011 reports10—that Amtrak develop and distribute reports on the extent of
mark-offs as a means of gauging drug and alcohol use and an indicator of where to
focus education and referral efforts.

Amtrak management responded to both of our reports by stating that they would have
these Redblock mark-off reports developed. Amtrak has worked diligently to reach
agreement with labor union officials and recently restructured the program. However,
very little information on RedBlock mark-offs has been provided to date in a manner
that would help senior management understand the extent of drug and alcohol use. For
example, locomotive engineers averaged only one positive test per year from 2006
through 2011, but, as FRA stated in its 2012 compliance report, engineers marked off 18
times from 2007 through 2009. This information is critical to Amtrak’s full
understanding of the extent of drug and alcohol use by its HOS employees because it
provides information that would not be captured through random drug and alcohol
testing.



Senior Management is Not Actively Engaged in Controlling Drug and
Alcohol Use

Senior management is not actively engaged in the program, nor have these managers
made controlling drugs and alcohol a clear priority at Amtrak. Amtrak’s Strategic Plan
for Fiscal Years 2011–2016, for example, does not mention anything about controlling
drug and alcohol use, despite safety being Amtrak’s primary goal and despite the plan’s
including metrics on train accidents, passenger injuries, and employee safety—all areas


10Operation RedBlock: Actions Needed to Improve Program Effectiveness (Report No. E-11-01, March 15, 2011)
and Operation RedBlock (Report No. E-08-01, March 4, 2008).
                                                                                                      10
                               Amtrak Office of Inspector General
     Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                        by Employees in Safety-Sensitive Positions
                       Report No. OIG-E-2012-023, September 27, 2012

that drug and alcohol use could affect. Similarly, Amtrak has not emphasized
controlling drugs and alcohol as part of the safety initiatives discussed in its Five-Year
Financial Plan. Further, we could find no evidence that drug and alcohol control was a
topic even discussed at length at any meetings of the Board of Directors or Amtrak’s
Executive Committee for many years, nor did anyone we interviewed provide any
examples of senior management’s active engagement with the program.

We recently recommended11 that Amtrak adopt an enterprise risk management
framework to identify, assess, mitigate, and monitor significant organizational risks.
Although we did not identify any Amtrak HOS employees who tested positive for drug
and alcohol use in connection with any accidents between 2007 and 2011, our review of
Amtrak’s data shows that the possibility of drug and alcohol use being involved in an
accident is legitimate, as nine employees tested positive for drugs during this period
after rules violations such as failing to stop, speeding, or not properly securing
equipment. Without integrating this risk into an enterprise risk management
framework, Amtrak may have difficulty managing the risk that drug and alcohol use
poses to its employees, passengers, and the public.



Physical Observations Do Not Meet FRA Requirements

Amtrak’s physical observation program for identifying signs and symptoms of drug
and alcohol use has not met FRA guidance for many years. As part of exercising due
diligence, Amtrak supervisors should physically observe HOS employees at a rate of
four times per year for signs and symptoms of being under the influence of drugs or
alcohol. To accomplish this, Amtrak needs to document approximately 17,000 physical
observations every year in its Total Efficiency Safety Test System.12 Although Amtrak
has steadily improved its number of observations since a low of 6,434 in 2007, it has
never met FRA’s guidance, having recorded only approximately 15,200 observations in
2011.




11 Management responded that it needed to better understand the commitment required before it
implemented an enterprise risk management system. See Amtrak Corporate Governance: Implementing a Risk
Management Framework is Essential to Achieving Amtrak’s Strategic Goals (OIG-A-2012-007, March 30, 2012).
12 This system is used to record all operational tests and inspections of HOS employees, including those

performed to detect signs and symptoms of drug and alcohol use.
                                                                                                          11
                               Amtrak Office of Inspector General
     Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                        by Employees in Safety-Sensitive Positions
                       Report No. OIG-E-2012-023, September 27, 2012

In order to better understand why these supervisors are not documenting enough
observations, we visited five of Amtrak’s HOS crew bases (Boston, Chicago, Los
Angeles, Philadelphia, and Washington, D.C.) in four of Amtrak’s seven divisions. We
met with 41 of an estimated 240 first-line supervisors of HOS employees in Amtrak’s
operating departments. We determined that several factors contribute to Amtrak’s not
meeting the required number of annual physical observations, including the following:

     Some supervisors apparently were not aware of Amtrak’s requirement to conduct
     physical observations. This included five supervisors (two in the Transportation
     Department, two in the Mechanical Department, and one in the Engineering
     Department) who did not conduct any drug and alcohol observations.

     Amtrak’s guidance on the frequency of observations per year does not meet the FRA
     requirement. Amtrak’s guidance issued November 7, 2011, states that HOS
     supervisors must physically observe HOS employees once per year rather than once
     per quarter, as required by FRA. Of the supervisors we interviewed, 28 of the 41 said
     they were aware of and complying with Amtrak’s requirements.

     Amtrak’s Total Efficiency Safety Test System is difficult and time-consuming to use.
     After conducting an observation, supervisors are required to return to their
     computers and enter into the system the results of the observation and other
     pertinent information about the employee. We were told by the senior analyst who
     oversees the system that it takes a knowledgeable supervisor about 3 minutes to
     record a physical observation into the system. One of the long-time Amtrak
     supervisors we interviewed said that the Amtrak system now requires more time
     than it did 10 years ago, and reflected the feelings of several supervisors we
     interviewed in saying that Amtrak’s system is “horrifically cumbersome.” In
     addition, two of the supervisors we interviewed previously worked at other large
     railroads, and stated that entering observations into the Amtrak system took
     between 4 and 10 times longer than at the other railroads where they had worked.13

In addition to not meeting the required number of observations, some supervisors have
not received recent training on conducting physical observations. FRA requires that


13This issue extends beyond physical observations for drugs and alcohol to all required observations of
HOS employees. For example, Amtrak conducted 309,137 total observations in 2011, while one of the
large freight railroads conducted more than 5 million.
                                                                                      12
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

each supervisor receive training on how to identify signs and symptoms of drug and
alcohol use, and, according to the D&A Program Office, Amtrak requires them to
receive refresher training every 3 years. Out of the 41 supervisors we interviewed, two
did not have any recollection or documentation of having attended initial training, and
only 12 of the 22 supervisors who required refresher training had received it. Of the 12
who had, only two had documentation in Amtrak’s Human Resources Information
System to support that they had received refresher training. According to Amtrak’s
D&A Program Office, it is this office’s responsibility to ensure that documentation of
training is recorded in the system, and it needs to improve in this area. However, the
office also stated that improvements to the system, such as automatic reminders of
when supervisors need training, would make it easier to ensure that supervisors get the
training they need.

The lack of training could also increase Amtrak’s risk that drug and alcohol use will go
undetected. According to the D&A Program Office, physical observations should be one
of Amtrak’s primary methods of detecting and deterring drug and alcohol use because
it involves a daily face-to-face observation of HOS employees who may be under the
influence. These observations should lead to FRA-required “reasonable suspicion tests”
when supervisors observe these employees displaying signs and symptoms of drug and
alcohol use. The lack of training and the potential poor quality of some of the
observations resulting from limited training likely contribute to Amtrak’s HOS
supervisors’ rate of reasonable suspicion testing being well below the industry average.
In 2011, Amtrak conducted only four reasonable suspicion tests of its 4,454 HOS
employees for drugs (.09 percent) and six reasonable suspicion tests for alcohol (.13
percent), compared with rates of about 3 percent and 2.5 percent, respectively, across
the industry.

The lack of physical observations is also increasing Amtrak’s financial exposure. FRA
has repeatedly cited Amtrak in its compliance reports for its deficiencies in the number
of physical observations. In its March 2012 report, FRA stated that Amtrak’s number of
observations could be interpreted as Amtrak’s being unconvinced that its HOS
supervisors need to improve the number of observations conducted. FRA further stated
that it may elevate enforcement actions against Amtrak up to and including fining
Amtrak if it does not meet the required number of annual physical observations in the
future. Meeting FRA requirements may become even more difficult as Amtrak may
need to observe an additional estimated 2,260 Maintenance of Way employees next year
due to potential changes to the federal regulation governing Amtrak’s D&A program.
                                                                                         13
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

This potential change could expand the pool of HOS employees requiring physical
observation by about 50 percent, with a group of employees that historically has had
issues with drug and alcohol use, according to FRA and Amtrak officials.



CONCLUSIONS

Drug and alcohol misuse by Amtrak’s HOS employees poses a potential threat to
employee, passenger, and public safety. The federal regulation was established to
address drug and alcohol use by railroad employees in safety-sensitive positions in an
attempt to limit accidents and improve public safety. However, Amtrak is not
complying with the due diligence requirement in the regulation. In particular, Amtrak’s
current senior management’s lack of knowledge about the extent of drug and alcohol
use, the lack of engagement in the program, and the limited response to FRA’s concerns
about its physical observations program raise serious questions about Amtrak’s
commitment to controlling drug and alcohol use. These conditions increase the risk that
a serious accident will occur that involves drugs or alcohol. The fact that this risk is not
yet integrated into an enterprise-wide risk management framework increases the
likelihood that it will not be adequately addressed.



RECOMMENDATIONS

To address its increasing rate of drug and alcohol use and to meet the federal
requirement for exercising due diligence, we recommend that Amtrak’s President and
Chief Executive Office direct the Vice President, Operations, and the Vice President,
Environmental Health and Safety, to work together to:

1. Increase the annual percentage of random drug and alcohol tests to improve
   Amtrak’s ability to detect and deter drug and alcohol use.

2. Routinely review the results of drug and alcohol testing, comparing them against
   company goals and industry averages.

3. Demonstrate that drug and alcohol control is a priority at Amtrak through the
   engagement of senior management with the program, and incorporate the risks
   associated with drug and alcohol use into a risk management framework.
                                                                                      14
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012


4. Ensure that the physical observation program meets or exceeds FRA’s guidance, to
   include

   a.   revising Amtrak’s guidance on the frequency of conducting observations to
        meet or exceed FRA guidance, and ensuring that all HOS supervisors are
        advised of this change,

   b.   holding supervisors accountable for performing the required number of
        observations each quarter,

   c.   improving the efficiency of the process and/or system used to record the
        physical observations, and

   d.   routinely reporting on the number of observations recorded against company
        goals and FRA guidance.

5. Ensure that HOS supervisors are properly trained in identifying signs and
   symptoms of drug and alcohol use and that their training is properly documented.



MANAGEMENT COMMENTS AND OIG ANALYSIS

Amtrak’s President and CEO provided us with comments on a draft of this report on
September 24, 2012, wherein he concurred with all of our recommendations and
established time frames in which Amtrak will implement the recommendations (see
Appendix II). We consider his comments responsive to our recommendations and will
follow up on their implementation.

                                         ---
Thank you for your cooperation during the course of this evaluation. We appreciate the
courtesies and cooperation that Amtrak representatives extended to us during the
course of this review. If you have any questions, please contact me
(Ted.Alves@amtrakoig.com, 202.906.4600) or Cal Evans, Assistant Inspector General for
Inspections and Evaluations (Calvin.Evans@amtrakoig.gov, 202.906.4507).
                                                                                         15
                                Amtrak Office of Inspector General
      Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                         by Employees in Safety-Sensitive Positions
                        Report No. OIG-E-2012-023, September 27, 2012


cc:      Donald A. Stadtler, Jr., Vice President, Operations
         Roy Deitchman, Vice President, Environmental Health and Safety
         Eleanor D. Acheson, Vice President, General Counsel and Corporate Secretary
         Barry Melnkovic, Chief Human Capital Officer
         Jason Molfetas, Chief Information Officer
         Mario Bergeron, Chief Mechanical Officer
         Frank A. Vacca, Chief Engineer
         Malva D. Reid, Senior Director, Health Services
         Deborah Jowers, Manager, Drug and Alcohol Program
         Jessica Scritchfield, Senior Director, Internal Controls/Audit
                                                                                      16
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

                                      Appendix I

                      SCOPE AND METHODOLOGY

This report provides the results of our evaluation of Amtrak’s drug and alcohol
program. We initiated this evaluation to determine whether Amtrak is ensuring that its
hours-of-service (HOS) employees are complying with federal regulations governing
the use of drugs and alcohol. Specifically, we evaluated (1) the extent to which Amtrak’s
random testing shows that HOS employees are using drugs and alcohol, and (2)
whether Amtrak is exercising due diligence in controlling the use of drugs and alcohol
by these employees. We performed our work from March through September 2012.

To evaluate the extent to which Amtrak’s HOS employees are using drugs and alcohol,
we reviewed FRA and Amtrak policies and procedure manuals and interviewed
officials from Amtrak’s D&A Program Office in order to understand how HOS
employees are randomly tested for drugs and alcohol. We then obtained and analyzed
drug and alcohol testing data that Amtrak provided to FRA for 2006 through 2011, and
completed a 6-year trend analysis on Amtrak’s drug and alcohol use. We also obtained
data on the railroad industry for the same period and compared it with Amtrak’s test
results. We discussed the results of our analysis with the manager of Amtrak’s D&A
program, along with other senior managers responsible for the program.

In statistically projecting the results for 2011, we assumed that Amtrak’s D&A testing
was, in fact, random, and we did not review Amtrak’s testing procedures. We believed
this was appropriate based on FRA’s periodic reviews and oversight of Amtrak’s testing
procedures, including approval of Amtrak’s random testing plan. We reviewed the
results of the tests, which were stratified by the five employee categories, and
developed a weighted average that each employee category represented to the total
population. Factoring this by the number of employees in each stratum provided the
“best estimate” results. We then projected the results over the HOS employee
population at a 95-percent confidence level to identify the potential number of
employees who could test positive for drug and alcohol use.

To evaluate whether Amtrak is exercising due diligence in controlling drug and alcohol
use by HOS employees, we interviewed program officials and senior management,
obtained and analyzed federal regulations, reviewed three FRA reports on Amtrak’s
D&A program (issued in 2006, 2009, and 2012), and reviewed training records for HOS
                                                                                        17
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

supervisors. Further, we reviewed post-accident and rule-violation records to identify
the effect of drug and alcohol use within Amtrak. We also visited five of Amtrak’s crew
bases in four of Amtrak’s seven geographic divisions. We picked these locations with
input from the D&A Program Office and in order to obtain a geographic spread of HOS
employees. We interviewed HOS supervisors who were available at each location to
evaluate their knowledge of Amtrak’s D&A program, to better understand why Amtrak
was not meeting FRA requirements for physical observations, and to determine
whether any weaknesses existed in Amtrak’s controls over random testing procedures.
We also reviewed Amtrak’s “reasonable suspicion” test rates and compared these
against the industry average.

Our work was performed in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation and our
statutory responsibilities contained in the Inspector General Act of 1978, as amended



Internal Controls

In conducting the evaluation, we reviewed certain Amtrak controls over its D&A
program within the context of our objectives. We determined that a deficiency in
internal controls existed due to noncompliance with the due diligence requirement in 49
CFR Part 219, such as controls to determine whether sufficient testing was performed
and to determine the appropriateness of employees for testing; reviewing senior
management’s involvement with the program; and the adequacy of physical
observations for signs and symptoms of drug and/or alcohol use. We also looked at
other Amtrak controls over processes that support efforts to control the use of drugs
and alcohol, such as whether employees were adequately trained and their training was
property documented. The results of our review are presented in the body of the report.



Computer-Processed Data

We used computer-processed data obtained from Amtrak on random testing for
Amtrak and the industry, physical observations from Amtrak’s Total Efficiency and
Safety Test System, and training records from Amtrak’s Human Resources Information
System. We did not review the overall reliability of these systems, but did obtain a
general understanding of how the data are collected and entered into the systems, and
                                                                                        18
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

other controls over the data, such as how the data are processed and managed. We then
reviewed source documents and gathered other evidence to confirm that the data were
accurate. We concluded that the data were sufficiently reliable for the purposes of our
objectives.



Prior Reports

We relied on the following Amtrak Office of Inspector General reports in conducting
our evaluation:

Amtrak Corporate Governance: Implementing a Risk Management Framework is Essential to
Achieving Amtrak’s Strategic Goals (OIG-A-2012-007, March 30, 2012)

Operation RedBlock: Actions Needed to Improve Program Effectiveness (Report No. E-11-01,
March 15, 2011)

Operation RedBlock (Report No. E-08-01, March 4, 2008)
                                                                                   19
                          Amtrak Office of Inspector General
Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                   by Employees in Safety-Sensitive Positions
                  Report No. OIG-E-2012-023, September 27, 2012

                                  Appendix II

             COMMENTS FROM AMTRAK’S
       PRESIDENT AND CHIEF EXECUTIVE OFFICER
                                                                                   20
                          Amtrak Office of Inspector General
Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                   by Employees in Safety-Sensitive Positions
                  Report No. OIG-E-2012-023, September 27, 2012
                                                                                   21
                          Amtrak Office of Inspector General
Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                   by Employees in Safety-Sensitive Positions
                  Report No. OIG-E-2012-023, September 27, 2012
                                                                                    22
                           Amtrak Office of Inspector General
 Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                    by Employees in Safety-Sensitive Positions
                   Report No. OIG-E-2012-023, September 27, 2012

                                  Appendix III

                              ABBREVIATIONS

CFR        Code of Federal Regulations
D&A        drug and alcohol
FRA        Federal Railroad Administration
HOS        hours of service
                                                                                     23
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

                                     Appendix IV

                            OIG TEAM MEMBERS

Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Carl Manora, Lead Evaluator

John MacMichael, Senior Principal Operations Officer

Megha P. Joshipura, Statistician, Office of Inspector General, U.S. Department of
     Transportation
                                                                                       24
                            Amtrak Office of Inspector General
  Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use
                     by Employees in Safety-Sensitive Positions
                    Report No. OIG-E-2012-023, September 27, 2012

           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to
                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency within
                                Amtrak;
                                prevent and detect fraud, waste, and abuse in Amtrak's
                                programs and operations;
                                review security and safety policies and programs; and
                                review and make recommendations regarding existing
                                and proposed legislation and regulations relating to
                                Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            E. Bret Coulson, Senior Director
Public Affairs               Congressional and Public Affairs
                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, DC 20002
                             Phone:    202-906-4134
                             Email:    bret.coulson@amtrakoig.gov
